LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

February 1, 2021

Philip Jay Fetner v. Hotel Street Capital LLC, et al.

Dear Sir or Madam:
I hereby certify that at the request of the Petitioner, on February 1, 2021,1 caused service to be
made pursuant to Rule 29 and the Temporary Order of April 15, 2020, on the following counsel for the
Respondents:
RESPONDENT HOTEL STREET
CAPITAL LLC:
Robert M. Marino, Esq.
REDMON, PEYTON & BRASWELL
510 King Street, Suite 301
Alexandria, Virginia 22314
703-684-2000
rmmarino@rpb-law.com

RESPONDENT IRS:
The Honorable Elizabeth Prelogar
Acting Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj .gov

RESPONDENT BANK OF
AMERICA/WILMINGTON SAVINGS
FUND SOCIETY:
Andrew Justin Narod, Esq.
BRADLEY ARANT BOULT
CUMMINGS, LLP.
1615 L Street, N.W., Suite 1350
Washington, D.C. 20036
202-393-7150
anarod@bradley.com

Robert K. Coulter, Esq.
UNITED STATES ATTORNEYS OFFICE
2100 Jamieson Avenue
Alexandria, Virginia 22314
703-299-3700
robert. coulter@usdoj. gov
RESPONDENTS STEPHEN S. ROSZEL VII,
PER BANG-JENSEN,
EXECUTORS, SUSAN ROSZEL HARTZ
William D. Ashwell, Esq.
MARK B. WILLIAMS & ASSOCIATES, PLC
27 Culpeper Street
Warrenton, Virginia 20186
540-254-0757
wdashwell@mbwalaw.com

RESPONDENT UNITED STATES
TRUSTEE:
Jack Ira Frankel, Esq.
OFFICE OF THE U.S. TRUSTEE
115 South Union Street
Alexandria, Virginia 22314
703-557-7229
jack.i.frankel@usdoj .gov

This service was effected by depositing one copy of a Petition for a Writ of Certiorari in an official
“first class mail” receptacle of the United States Post Office as well as by transmitting digital copies via
electronic mail.
Sincerely,
)
Principal
LISA KAY NICHOLSON
Notary Public
I State of Maryland
Montgomery County
My commission op. October 12,2022

Sworn and subscribed before me this 1st day of February 2021.

l

e^\

